King & Spalding LLP
601 South California Avenue, Ste. 100
Palo Alto, CA 94304
Tel: +1 650 422 6700
Fax: +1 650 422 6800
www.kslaw.com
Anne M. Voigts
Partner
Direct Dial: +1 650 422 6710
Direct Fax: +1 650 422 6800
avoigts@kslaw.com

March 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Xavier Becerra, Secretary of Health and Human Services v. Empire Health
Foundation, for Valley Hospital Medical Center, No. 20-1312

Dear Mr. Harris:
The petition in the above-captioned case was filed on March 19, 2021. The brief in
opposition (as well as any conditional cross-petition for certiorari) is due by April 19, 2021.
Respondent’s counsel respectfully requests, under Rule 30.4 of the rules of this Court, an
extension of time to and including May 19, 2021, within which to file the brief in opposition for
Respondent. Petitioner’s counsel notified Respondent’s counsel on March 24, 2021, that they
consent to this extension request.
This extension of time to file is necessary because of the continuing constraints caused by
counsel and staff working remotely in response to COVID-19, the need to file a conditional crosspetition for certiorari in this case, as well as the heavy press of earlier assigned deadlines or matters
for both of Respondent’s counsels.
Specifically, during the month of April, Mr. Daniel J. Hettich has the following deadlines
and responsibilities: (1) a Tenth Circuit reply brief due on April 21, 2021, in St. Francis Hospital,
Inc., et al. v. Cochran, No. 20-5097 (10th Cir. filed Oct. 6, 2020); (2) a federal court complaint
due on April 9, 2021, for St. Mary’s Medical Center (Provider Reimbursement Review Board
(“PRRB”) No. 13-1789); (3) joint status report addressing four discrete issues due on April 16,
2021, in In re: Allina II-Type DSH Adjustment Cases, No. 1:19-mc-00190-ABJ (D.D.C. filed Nov.
4, 2019); (4) a federal court complaint due April 20, 2021, for Bon Secours health system (PRRB
No. 16-2482GC); (5) multiple comprehensive PRRB position papers on behalf of hospitals or
health systems; and (6) advice and advocacy related to COVID-19 and other time-sensitive issues

March 30, 2021
Page 2
for multiple hospital clients. In addition to the many pressing deadlines listed above, due to the
COVID-19 public health emergency, Mr. Hettich is hindered by the necessity of working remotely
in a home with several young children who are also remote learning from home.
Over the next eight weeks, Anne Voigts has a petition for certiorari due in another case,
multiple briefs due both in the Federal Circuit and the Ninth Circuit, as well as oral argument in
the Ninth Circuit. Like Mr. Hettich, she is working from home and supervising school-age children
who are also engaged in remote learning.
Their associates, colleagues, and clients also face similar difficulties associated with the
pandemic and the remote work environment.

Sincerely,
Anne M. Voigts
Counsel for Empire Health Foundation
cc:

Elizabeth B. Prelogar
Solicitor General of the United States, Counsel of Record
U.S. Department of Justice
950 Pennsylvania Ave. NW, Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov

